<html>
<title> - REAUTHORIZATION FOR THE NATIONAL HISTORICAL PUBLICATIONS AND RECORDS COMMISSION</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




 
 REAUTHORIZATION FOR THE NATIONAL HISTORICAL PUBLICATIONS AND RECORDS 
                               COMMISSION

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT MANAGEMENT,
                      INFORMATION, AND TECHNOLOGY

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 4, 2000

                               __________

                           Serial No. 106-185

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                               ----------

                   U.S. GOVERNMENT PRINTING OFFICE
70-057                     WASHINGTON : 2001



_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                    Lisa Smith Arafune, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Government Management, Information, and Technology

                   STEPHEN HORN, California, Chairman
JUDY BIGGERT, Illinois               JIM TURNER, Texas
THOMAS M. DAVIS, Virginia            PAUL E. KANJORSKI, Pennsylvania
GREG WALDEN, Oregon                  MAJOR R. OWENS, New York
DOUG OSE, California                 PATSY T. MINK, Hawaii
PAUL RYAN, Wisconsin                 CAROLYN B. MALONEY, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          J. Russell George, Staff Director and Chief Counsel
               Heather Bailey, Professional Staff Member
                           Bryan Sisk, Clerk
           David McMillen, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 4, 2000....................................     1
Statement of:
    Blunt, Hon. Roy, a Representative in Congress from the State 
      of Missouri................................................    41
    Carlin, John, Archivist, National Archives and Records 
      Administration.............................................     2
    Cullen, Charles T., president, Newberry Library..............    22
    Gilliland-Swetland, Anne, assistant professor, Department of 
      Information Studies, University of California at Los 
      Angeles....................................................    30
    Newhall, Ann C., Executive Director, National Historical 
      Publications and Records Commission........................     8
Letters, statements, etc., submitted for the record by:
    Blunt, Hon. Roy, a Representative in Congress from the State 
      of Missouri, prepared statement of.........................    43
    Carlin, John, Archivist, National Archives and Records 
      Administration, prepared statement of......................     4
    Cullen, Charles T., president, Newberry Library, prepared 
      statement of...............................................    24
    Gilliland-Swetland, Anne, assistant professor, Department of 
      Information Studies, University of California at Los 
      Angeles, prepared statement of.............................    32
    Newhall, Ann C., Executive Director, National Historical 
      Publications and Records Commission, prepared statement of.    10
    Turner, Hon. Jim, a Representative in Congress from the State 
      of Texas, prepared statement of............................    66


 REAUTHORIZATION FOR THE NATIONAL HISTORICAL PUBLICATIONS AND RECORDS 
                               COMMISSION

                              ----------                              


                         TUESDAY, APRIL 4, 2000

                  House of Representatives,
Subcommittee on Government Management, Information, 
                                    and Technology,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:03 p.m., in 
room 2247, Rayburn House Office Building, Hon. Stephen Horn 
(chairman of the subcommittee) presiding.
    Present: Representatives Horn, Biggert, and Turner.
    Staff present: Heather Bailey, professional staff member; 
Bryan Sisk, clerk; Trey Henderson, minority counsel; David 
McMillen, minority professional staff member; and Jean Gosa, 
minority assistant clerk.
    Mr. Horn. The hearing of the Government Management, 
Information, and Technology Subcommittee will come to order.
    Since its formation in 1934, the National Historical 
Publications and Records Commission has contributed 
significantly to the Nation's effort to preserve its historic 
documents. In 1964, the Commission, affiliated with the 
National Archives and Records Administration, began funding 
independent archival projects through its grants program.
    These awards are given to projects that help preserve 
records of non-Federal entities, including State, county, 
municipal, and tribal governments. The Commission also funds 
archival projects involving family papers, manuscripts and 
business records, including engineering drawings, motion 
pictures, and electronic records.
    The Commission has been instrumental in preserving the 
historical works of such great American leaders as George 
Washington, John Adams, Henry Clay, and Martin Luther King, Jr.
    In November 1999, the Commission awarded grants for 64 
projects totaling $3 million. In addition, it proposed funding 
a 3-year, $1.8 million initiative to help raise the level of 
archival expertise in the rapidly changing area of electronic 
recordkeeping.
    As National Archive's grantmaking arm, the Commission 
continues to provide an invaluable service to the Nation and to 
the maintenance of its history. Our witnesses today will 
discuss the Commission's many successes and the challenges that 
lie ahead. I welcome each one of you and I look forward to your 
testimony.
    We have for today one panel, so I think I will swear you 
all in at once and any assistants that are going to buzz in 
your ear, get them to raise their right hand also. We have 
three assistants, four speakers, seven all told.
    Do you affirm that the testimony you are about to give this 
subcommittee is the truth, the whole truth, and nothing but the 
truth?
    [Witnesses respond in the affirmative.]
    Mr. Horn. All seven nodded or affirmed. So the clerk will 
note that.
    We are delighted to start with the distinguished Archivist 
of the United States, the Honorable John Carlin, Archivist, 
National Archives and Records Administration. Please proceed.

  STATEMENT OF JOHN CARLIN, ARCHIVIST, NATIONAL ARCHIVES AND 
                     RECORDS ADMINISTRATION

    Mr. Carlin. Chairman Horn, members of the committee, staff, 
thank you very much for this opportunity to testify in support 
of the reauthorization of the National Historic Publications 
and Records Commission.
    Ann Newhall, the Executive Director of NHPRC, will provide 
a detailed description of the Commission's activities and 
plans. I would like simply to explain overall why the work of 
this relatively small program greatly matters.
    When I became Archivist of the United States, I learned to 
my surprise that I was also the Chair of the NHPRC. The 
Congress, as you indicated, created the National Archives and 
the NHPRC in the same legislation, which directed as the head 
of the National Archives, Chair the Commission and provided for 
the NHPRC to be administered within NARA and provided for the 
NHPRC to be administered within NARA which it has been ever 
since.
    Why? Because Congress recognized that the job of preserving 
this Nation's records required two national archives. One is 
today's National Archives and Records Administration which 
safeguards records of all three branches of the Federal 
Government. The other National Archives safeguards non-Federal 
records and consists of the combined holdings of the State and 
local archives, the university archivable and manuscript 
collections, and the documentary collections of libraries, 
historical societies and other cultural repositories, private 
and public.
    As you well know, American history did not happen just in 
Washington. It has unfolded in every State and locality through 
private actions as well as those of the government. Unless we 
safeguard historical records widely, there will be gaping holes 
in our Nation's history.
    It is not only history that we lose. Rights and 
entitlements of citizens depend on their ability to document 
their citizenship. I may live in the State of Maryland, but my 
citizenship may be documented by a birth certificate in a 
locality in Kansas or by a court decree in California, or by an 
INS record in Washington. Records created and maintained within 
each State are to individuals and institutions nationwide. 
Records everywhere are necessary for the credibility and 
accountability of institutions in a democracy, not just 
national institutions such as the White House and the Congress, 
but government institutions at all levels, as well as 
organizations in the private sector that have a great impact on 
American life.
    The NPRC exists to stimulate the care and use of records 
that are beyond NARA's jurisdiction. It does that by 
encouraging documentary work outside the Federal Government 
with small grants to archivable, historical and cultural 
organizations throughout our country. Such records are needed 
even to document the Federal Government.
    I understand this because when I was Governor of Kansas, I 
became well aware that many Federal programs were carried out 
at the State and local levels. Therefore, safeguarding records 
at those levels is necessary for the documentation of many 
Federal programs.
    Mr. Chairman, I believe that you too understand from a 
personal experience the need for documentary work far beyond 
Washington. I understand in writing your own books you have 
used materials in State archives as well as the National 
Archives and, in fact, you created an archivable program at the 
California State University at Long Beach.
    You know even better than I that often an important work of 
scholarship will depend on resources reserved in multiple 
institutions. Through grants, working with State advisory 
boards, and through contributing to funding partnerships, NHPRC 
plays a critical role in promoting work to ensure that records 
of many kinds in many parts of the country will be safe and 
accessible for scholars and others who need them. As Archivist 
of the United States, as chairman of the Commission, and as a 
citizen concerned about rights, accountability, and history, I 
strongly request that NHPRC be reauthorized to carry on its 
important work.
    Thank you.
    [The prepared statement of Mr. Carlin follows:]

    [GRAPHIC] [TIFF OMITTED] T0057.001
    
    [GRAPHIC] [TIFF OMITTED] T0057.002
    
    [GRAPHIC] [TIFF OMITTED] T0057.003
    
    [GRAPHIC] [TIFF OMITTED] T0057.004
    
    Mr. Horn. Thank you very much for that summary.
    I might add for all of you who have not been here before, 
the minute we introduce you, your resume goes in, your full 
testimony goes in and we would like you to summarize it because 
we have read the testimony. I did have the chance last night. 
So we would appreciate that if you would just put the high 
points orally so we will have more time for questions and 
answers.
    Our next presenter is Ms. Ann C. Newhall, Executive 
Director, National Historical Publications and Records 
Commission. Please proceed.

   STATEMENT OF ANN C. NEWHALL, EXECUTIVE DIRECTOR, NATIONAL 
         HISTORICAL PUBLICATIONS AND RECORDS COMMISSION

    Ms. Newhall. Mr. Chairman, I wish to join with Archivist 
Carlin in thanking you for your sponsorship of the legislation 
to reauthorize the NHPRC. We are very grateful as well, to 
Representatives Turner, Blunt, and other co-sponsors for their 
support.
    On behalf of the Commission, I want to thank you very much 
for this opportunity to speak about the NHPRC which is probably 
one of the least known organizations within the Federal 
Government but I happen to think one of the best.
    I also would like to quickly thank a member of your staff. 
Heather Bailey has been most helpful in helping me prepare for 
this, my first experience in such an arena.
    Mr. Horn. Thank you.
    Ms. Newhall. The NHPRC's statutory mission is to ensure an 
understanding of our Nation's past by promoting nationwide the 
identification, preservation, and dissemination of essential 
historical documentation. The Commission is chaired by the 
Archivist of the United States and our offices are located in 
Washington, DC.
    Our mandate is to look outward, to provide assistance to 
non-Federal agencies, associations, institutions, and 
individuals who are committed to the preservation and use of 
America's documentary resources. As such, the NHPRC is the only 
national grantmaking organization whose only focus is the 
American documentary record, whatever its format, whether it 
was created with a quill pen or on a computer, or anything in 
between.
    Through its competitive grants, the NHPRC provides a kind 
of venture capital for the historical and archival world. Under 
our strategic plan, the NHPRC has three goals, three equal 
strategic goals. The first refers to the partial support we 
give for the publication of eight projects collectively known 
as the founding fathers or the founding era. This is to produce 
documentary editions of the papers of George Washington, John 
Adams, Ben Franklin, Thomas Jefferson, James Madison, papers 
that document the ratification of the Constitution, the First 
Federal Congress, and the early Supreme Court.
    This is a time of diminishing resources for documentary 
editions but the NHPRC continues to recognize the inherent 
value in bringing together related documents, sometimes from 
archivable repositories all around the world, professionally 
authenticating them, transcribing them and through annotation, 
further enhancing the reader's understanding of the context in 
which the documents were created.
    Today, the Internet and other communications breakthroughs 
have made it possible for Americans of every age to encounter 
more and more and more information, but what is lacking and 
what will become ever more valuable as we move forward is 
authentication and context. These are provided by the 
documentary editions which are supported by the NHPRC.
    Our second goal refers to our collaboration with State 
historical records advisory boards to strengthen the Nation's 
archivable infrastructure and to expand the range of records 
that are protected and accessible. I will skip for the moment 
this material to go on to our third goal.
    Our third goal is to help archivists, documentary editors, 
and records managers overcome obstacles and take advantage of 
the opportunities posed by electronic technologies and to 
provide leadership, funding research, development on 
appraising, preserving, disseminating, and providing access to 
important documentary sources in electronic form.
    Because the technology needed to access electronically 
created documentation becomes obsolete in a matter of years, 
this goal sums what is, without question, the greatest 
challenge facing the archivable world today--how to identify, 
preserve, and provide long-term access to electronic records 
having enduring historic value.
    I should stress that the NHPRC devotes its support to 
records originally created in electronic form. In recent years, 
we have been much more aggressive and imaginative, I think, in 
funding several projects which Anne Gilliland-Swetland will 
describe today. We are also initiating the initiative that you 
mentioned to raise archivable expertise in the area of 
electronic records.
    Much has been done but there are many challenges remaining 
in the electronic records area. It will be some time before and 
considerable work will be required before most non-Federal 
archivable institutions will be in position to handle 
comfortably, capably and as a matter of course, the long-term 
retention of and easy access to historically valuable 
electronic records.
    NHPRC works very hard to provide vigorous, effective and 
imaginative leadership and at the same time to be open to the 
ideas and ingenuity of this Nation's archivists and historians 
and documentary editors and all those who care about American 
history.
    We are grateful to you for this opportunity to talk about 
what we are and what we do. We ask that the National Historical 
Publications and Records Commission be reauthorized so that it 
might continue in this significant, noble, and enduring 
endeavor.
    [The prepared statement of Ms. Newhall follows:]

    [GRAPHIC] [TIFF OMITTED] T0057.005
    
    [GRAPHIC] [TIFF OMITTED] T0057.006
    
    [GRAPHIC] [TIFF OMITTED] T0057.007
    
    [GRAPHIC] [TIFF OMITTED] T0057.008
    
    [GRAPHIC] [TIFF OMITTED] T0057.009
    
    [GRAPHIC] [TIFF OMITTED] T0057.010
    
    [GRAPHIC] [TIFF OMITTED] T0057.011
    
    [GRAPHIC] [TIFF OMITTED] T0057.012
    
    [GRAPHIC] [TIFF OMITTED] T0057.013
    
    [GRAPHIC] [TIFF OMITTED] T0057.014
    
    [GRAPHIC] [TIFF OMITTED] T0057.015
    
    [GRAPHIC] [TIFF OMITTED] T0057.016
    
    Mr. Horn. Thank you very much.
    We are delighted to see Charles T. Cullen as president of 
the Newberry Library. It is one of the world's great 
depositories of rare books and manuscripts. The reputation of 
the library precedes you. I am sure you are nursing it along to 
even greater heights.

  STATEMENT OF CHARLES T. CULLEN, PRESIDENT, NEWBERRY LIBRARY

    Mr. Cullen. Thank you, sir. I am delighted to be here 
today.
    I thought I might mention that I have come in this noontime 
and I will leave immediately after to go back to Chicago. I 
have done that primarily because of the importance I attach to 
the reauthorization of the NHPRC, so that I was prepared to 
change my schedule to come and appear before you today.
    I am enjoying the present position as the head of the 
Newberry Library in Chicago but I came to it 14 years ago after 
spending some period of time as an editor of some of these 
editions. Twenty-five years ago I was the editor of the papers 
of John Marshall and for a period in the 1980's, I was editor 
of the papers of Thomas Jefferson. So I speak from experience 
as an editor and a historian who has worked with these 
materials both as a scholar, as a user, and now as head of a 
research library that is very heavily used by teachers at all 
levels and one that is open to the public. I see people from 
the public--school teachers and people who are not engaged in 
any particular remunerative exercises coming and using these 
materials to learn more about our Nation's history.
    Last Friday, for example, the recently retired CEO of one 
of our Nation's leading electronics companies was in the 
Newberry Library to learn more about the effects of the 
Scottish enlightenment on the ideas of the founding fathers. He 
was using some of these materials that the NHPRC has made 
available.
    Such interest is much more widespread, I believe, than many 
of us realize, more widespread among the general public. I also 
participated last week in a colloquium down in Florida. A group 
of retired people, about 50 of them, came together once a week 
for a month to study the Declaration of Independence and the 
ideas that contributed to it.
    There was heated discussion about the meaning of the 
Declaration and the ideas that we find in the papers of the 
founding fathers so that they can study them and see what was 
really thought. That was what they wanted to know, what was the 
truth and what the facts were. These materials make it 
available and I think the availability in the original state, 
or at least in original source materials, is of fundamental 
importance in a democratic society.
    The NHPRC provides seed money for more than 40 projects 
working to make significant American documents accessible to 
everyone who can read in print and increasingly in electronic 
form so that accessibility has spread worldwide. Slightly more 
than $2 million per year attracts much more money from sponsors 
drawn to this work by its initial endorsement and continuing 
support from the NHPRC.
    The Commission's grants program is a highly successful 
leverager. The results have been very impressive. Over 700 
volumes and almost 10,000 rolls of microfilm now are available 
from these NHPRC-sponsored projects to inform those who are 
interested in our Nation's history.
    They have revolutionized the study of American history. One 
of the Nation's leading historians has called this work the 
most important and lasting work of the 20th century, the most 
important work in American history of the 20th century.
    Others have used these materials to write monograms. 
Stephen Ambrose's ``Undaunted Courage'' couldn't have been 
written without the publication of the NHPRC-sponsored project 
to publish the journals of the Lewis and Clark Expedition. TV 
documentaries depend heavily on these. Ken Burns has told me 
himself that he couldn't have done three of his projects 
without the editors supported by the NHPRC.
    With NHPRC help, projects have shared information and 
skills among each other to take advantage of improvements in 
technology and in ways of disseminating these important 
materials. They have served as resources for our Government, 
for the press, and for civic groups in addition to scholars and 
interested citizens.
    In sum, this small government agency is a mouse that roars. 
It is one of the biggest bargains in the U.S. Government budget 
it seems to me. I urge its continuation through congressional 
reauthorization and I thank you again for giving me a chance to 
express these widespread sentiments. I would be glad to answer 
any questions when the time comes.
    [The prepared statement of Mr. Cullen follows:]

    [GRAPHIC] [TIFF OMITTED] T0057.017
    
    [GRAPHIC] [TIFF OMITTED] T0057.018
    
    [GRAPHIC] [TIFF OMITTED] T0057.019
    
    [GRAPHIC] [TIFF OMITTED] T0057.020
    
    [GRAPHIC] [TIFF OMITTED] T0057.021
    
    [GRAPHIC] [TIFF OMITTED] T0057.022
    
    Mr. Horn. Thank you very much, Mr. Cullen. We appreciate 
that.
    Our last presenter is Anne Gilliland-Swetland, assistant 
professor, Department of Information Studies, University of 
California at Los Angeles. Glad to have you here.

  STATEMENT OF ANNE GILLILAND-SWETLAND, ASSISTANT PROFESSOR, 
DEPARTMENT OF INFORMATION STUDIES, UNIVERSITY OF CALIFORNIA AT 
                          LOS ANGELES

    Ms. Gilliland-Swetland. Thank you, Mr. Chairman.
    Thank you for inviting me here this afternoon to present 
testimony with regard to the National Historical Publications 
and Records Commission efforts to preserve historical documents 
and electronic records, and to support the bill to reauthorize 
the Commission.
    While the implementation of electronic recordkeeping 
technologies is fundamental to activities such as electronic 
commerce, electronic government, and academic and industry 
research, it also presents society today with one of its 
greatest technological challenges, how to guarantee the long-
term preservation, trustworthiness and accessibility of vast 
quantities of electronic records in the face of continual and 
rapid obsolescence of computer hardware and software, 
vulnerable and impermanent storage media, and manipulable 
electronic systems.
    The National Historical Publications and Records Commission 
is the only national funding agency that is directly addressing 
the challenges posed for recordkeeping and records 
preservation. With the articulation and implementation over the 
past 9 years of its vitally important electronic records 
research agenda, the Commission has singlehandedly been 
responsible for most of the knowledge gains and development 
activities that have occurred in the United States in this area 
in the past decade.
    This agenda has resulted in concrete outcomes such as the 
development of model electronic records programs as well as 
sets of functional requirements, mathematical-data schema, best 
practices, and industry standards for electronic recordkeeping.
    I want to briefly discuss two NHPRC-funded projects 
currently underway. These projects exemplify not only the 
extensive and complex nature of research and development to 
date in the area of electronic records that has been funded by 
the Commission, they also exemplify how the Commission has 
worked to ensure interaction between complementary projects, 
the relevance of its agenda to a range of research communities, 
and its ability to facilitate projects that strategically 
leverage additional funding sources. Without the Commission's 
electronic research agenda and its funding program, such 
research simply would not be possible.
    In June 1999, the NHPRC funded American researchers to 
participate in the International Project on Permanent Authentic 
Records and Electronic Systems, known as InterPARES. This year, 
the Commission funded the San Diego Supercomputer Center's 
methodologies for the long-term preservation of and access to 
software-dependent electronic records project.
    The two projects are working closely together because of 
the interdependent nature of their research. InterPARES is 
generating theoretical, technical, policy, and educational 
requirements for the preservation of authentic records based on 
an analysis of records in a wide range of organizational and 
jurisdictional settings.
    The SDSC project is designing information architectures 
that will buildupon these requirements and that will be 
scalable to situations other than very large archivable 
repositories such as the National Archives and Records 
Administration.
    InterPARES brings together an interdisciplinary team of 
researchers and an industry group representing the global 
biocomputer and pharmaceutical industries, together with the 
National Archives and several countries in North America, 
Europe, Asia, and Australia.
    In addition to funding from NHPRC, major funding for 
InterPARES has also been made by Canada's Social Science and 
Humanities Research Council and the Italian National Research 
Council.
    The San Diego Supercomputer Center is the leading edge 
facility for the National Partnership for Advanced 
Computational Infrastructure. SDSC's project builds upon its 
experience working with the National Archives on the ongoing 
NARA/DOCT Electronic Records Management Project. The NHPRC 
funded project will allow SDS researchers to take what they 
have learned from working with NARA as well as from the work of 
InterPARES and other recent and ongoing NHPRC-funded projects 
and develop and test prototypes and tools for preserving and 
making accessible software-dependent records in ways scaled to 
the needs and resources of different kind of institutions such 
as State and local governments and universities.
    Important and exciting as these projects and others 
currently underway are, they address only certain key issues 
and there remains an immensely important role for NHPRC to play 
with regard to furthering research and development in the area 
of electronic records management and preservation.
    I would like therefore wholeheartedly to support the 
reorganization of the Commission.
    Thank you.
    [The prepared statement of Ms. Gilliland-Swetland follows:]

    [GRAPHIC] [TIFF OMITTED] T0057.023
    
    [GRAPHIC] [TIFF OMITTED] T0057.024
    
    [GRAPHIC] [TIFF OMITTED] T0057.025
    
    [GRAPHIC] [TIFF OMITTED] T0057.026
    
    [GRAPHIC] [TIFF OMITTED] T0057.027
    
    [GRAPHIC] [TIFF OMITTED] T0057.028
    
    [GRAPHIC] [TIFF OMITTED] T0057.029
    
    [GRAPHIC] [TIFF OMITTED] T0057.030
    
    Mr. Horn. Thank you. At this point, we will begin 
questioning. Mr. Blunt has not made it here. He is probably in 
a hearing just as we have been.
    I will now yield for 5 minutes to the vice chair, Ms. 
Biggert, the gentlewoman from Illinois, for questioning the 
witnesses.
    Ms. Biggert. Thank you.
    This is for Mr. Carlin and Ms. Newhall. What are some of 
the biggest challenges that face the Commission in the next few 
years? That is a pretty broad question.
    Mr. Carlin. One that quickly comes to mind obviously deals 
with what we have shared here today and that is the challenge 
of electronic records for a whole long list of reasons. You 
have heard testimony on a great deal of the detail but the 
bottom line, in a practical way, is that unless we can continue 
the work being done dealing with electronic records and all 
that remains, there are going to be huge record gaps in our 
documentation of what has gone on. I fear the gaps exist 
already. I am just hoping the work we are proceeding on can 
allow us to limit that gap as much as possible and proceed 
toward the kind of recordkeeping we need for accountability in 
government, for the protection of individual rights and yes, 
ultimately a history.
    Ms. Biggert. If you have documents on the Internet, for 
example, how accessible will those be for both users of the 
Internet but also non-users of the Internet?
    Mr. Carlin. We certainly intend to make maximum use of the 
Internet to communicate. I think back to my tenure of 5 years, 
and 5 years ago we didn't talk much about Websites and their 
importance to reach out and make contact. Today it is a 
necessity for us to communicate the progress we are making both 
internally as far as the Federal Government in many ways this 
research will impact as well as for State and local government 
and the private sector. Communicating through Websites is 
absolutely essential to make sure we are reaching out so that 
the investment that is made gets maximum return to the benefit 
of anyone who can make use of the progress.
    Ms. Newhall. I think another challenge, an enormous one 
facing NHPRC and the archival world is the question of 
continuing education for archivists. Being an archivist 
requires a lot of very specialized knowledge. You have to know 
a lot about history, a lot about library techniques 
specifically oriented toward handling millions of individual 
pieces of paper as opposed to bound volumes, a lot about the 
chemical aspect of the deterioration of papers, a lot about 
electronic records, and a fair amount of law. These develop 
according to the type of collection you are working with and it 
changes, you don't know it all when you graduate from graduate 
school.
    This is a particularly worrisome situation for us because 
the archivable world has been pretty top heavy with baby 
boomers. As they begin to retire, we see there is a lot of 
professionals who have been kept in mid-level positions in a 
lot of archivable institutions who are now going to be wanting 
to move up. They will require more and different kinds of 
perhaps management training than they have had in order to head 
large organizations. Once they get the position, they are going 
to have specialized knowledge they need. This is one of our 
areas of real concern now, continuing education for archivists.
    We also are looking at restructuring or looking at the 
concerns of how we can most efficaciously speed up the work of 
some of the documentary editions.
    Ms. Biggert. Mr. Cullen, I am also from Illinois, so I am 
very proud of being in the State where your library is located. 
It is a wonderful monument in Chicago and we are very proud to 
have that there.
    Can you tell me what the future for printed editions is? We 
seem to be looking ahead to the electronic documentation. Will 
printed editions be growing or shrinking with the onset of 
electronic publishing?
    Mr. Cullen. It is impossible to say that people are going 
to use printed editions in the future as much as they have in 
the past because there will be this other accessibility. My 
experience is and most of my colleagues see happening having 
things available in electronic form is increasing the use of 
other materials, bringing more people to libraries to dig 
further.
    I think the future of these editions is good, at least 
their use is good. Many are midway or near finishing their 
printed editions. There are people who if they are looking for 
one reference, they would find electronic accessibility more 
desirable.
    If they want to read and explore, as I mentioned this 
retired CEO was Friday, and see what comes from the material, 
they preferred the printed version. There will always be, I 
think, the need for print on paper, as well as putting this 
material on the Internet for those who have access to it that 
way and prefer that.
    The work has to be done. You have to take the documents you 
are trying to edit and whether they have to be sent to a 
printer to be put on paper or filed on a Website someplace, the 
work is already done. How they are disseminated doesn't matter 
a great deal to the editor. Whoever will use it or how they 
want it is what is sought.
    Mr. Horn. We will have another round. I see Mr. Blunt is 
here and Members are busy, so Mr. Blunt, feel free to make your 
statement or if you can stay with us, we would love to have 
you.

STATEMENT OF HON. ROY BLUNT, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF MISSOURI

    Mr. Blunt. I don't think I can stay, Mr. Chairman, but I am 
pleased to be here to advocate the renewal of the National 
Historic Publications and Records Commission. I have submitted 
testimony for the record that I will briefly summarize.
    I was pleased with the testimony I was able to put together 
because I have had some substantial personal experience with 
NHPRC. One of those experiences is having served for the last 
two Congresses as the Member of the House on the Board that 
determines the allocation of those resources allocated through 
grants. That board includes myself, one Member of the Senate, 
one member of the Supreme Court, the Librarian of Congress, the 
Archivist of the United States, and a number of individuals 
from the historic community. Those resources are allocated, 
many through that board after careful review.
    There are a number of different ways NHPRC has worked. I 
mention those in my testimony. Some specifically go back to the 
two terms I served as the Secretary of State in Missouri where 
the State archives and the records responsibility for State and 
local government was part of the Secretary of State's office.
    In the last 20 years as I mention in my testimony, NHPRC 
has awarded more than 25 grants totaling $800,000 just within 
the State of Missouri. One project was one I visited not too 
long ago the Southwest Missouri Labor Records Project, a number 
of records that otherwise would not have been saved, would not 
have been seen in the part of the State I represent if it 
hadn't been for the preservation of those documents to really 
tell the story of the labor movement in southwest Missouri and 
the impact it had on the development of the community.
    When I was Secretary of State, the NHPRC allowed the State 
Records Board, through a grant, to do a statewide survey of the 
options before State and local government to help preserve 
records. As an offshoot of that project, we put in place a 
model local records program for the country. The State of 
Missouri through a fee collected with recorded documents in 
courthouses has given over $3 million in grants to over 600 
grantees since 1992, all as a result of that $25,000 investment 
made by NHPRC. So $25,000 from NHPRC turned out to be over $3 
million to date invested in over 600 different projects.
    As the States, as part of those projects, work with local 
governments, documents that weren't known to be in existence 
have been uncovered and publicly shared. There were documents 
related to Merriweather-Lewis, to William Clark, to both Frank 
and Jesse James, the first known short biography of Harry 
Truman written as part of a court case he was a party to as a 
young man still farming in Grandview, MO, none of which were 
known to be in existence until they were discovered as part of 
projects that related out of those grants that were initiated 
because of a very small investment at the Federal level.
    In my testimony I have suggested a number of different 
experiences in States. As I look through my testimony, neither 
Illinois or California are listed but I am sure that is an 
oversight and there have been in Florida, Minnesota, Ohio, 
North Carolina, Michigan and Vermont specific initiatives that 
were created because of the NHPRC efforts. This is the place 
where the Federal Government, with very little money, has been 
able to encourage significant efforts in retaining and 
preserving our history, both at the government level and the 
third area that really has just begun to blossom in recent 
years, the area where these grants have been made more 
available to nongovernmental groups who because of the 
determination at the Commission level were thought to have a 
significant repository like the Ozarks labor union records, the 
southwest Missouri labor union records, of our history, our 
culture, our development as a country.
    Certainly I am hopeful that your committee, as I believe it 
will, provides the leadership to take this legislation to the 
floor, get it passed and continue this worthwhile program.
    [The prepared statement of Hon. Roy Blunt follows:]

    [GRAPHIC] [TIFF OMITTED] T0057.031
    
    [GRAPHIC] [TIFF OMITTED] T0057.032
    
    [GRAPHIC] [TIFF OMITTED] T0057.033
    
    [GRAPHIC] [TIFF OMITTED] T0057.034
    
    [GRAPHIC] [TIFF OMITTED] T0057.035
    
    Mr. Horn. Thank you very much for that excellent statement. 
I was fascinated when I read last night about the discovery of 
those labor papers in the Ozarks, economic development and this 
kind of thing that comes from it.
    Were they involved in political organization also?
    Mr. Blunt. They certainly were and they were involved in 
some pretty heated strikes, including a major streetcar strike. 
All of those records would have been lost. They were literally 
in a situation where they had been salvaged one time on the way 
to the trash pile and were being saved by a person who just 
realized they had great potential. In the storage space he had 
available, there is no way they would have survived that 
individual's life if this program hadn't made it possible to 
reach out and categorize those records. They will be available 
at Southwest Missouri State University from now on as an 
important part of the heritage of both the labor movement and 
certainly as it related to our part of the State.
    Mr. Horn. That is great progress.
    Mr. Blunt. Thank you, Mr. Chairman.
    Mr. Horn. Thank you.
    Let us continue some of the questioning between Ms. Biggert 
and myself.
    Mr. Carlin, what are some of the collaborative projects 
being worked by both the Commission and the National Archives?
    Mr. Carlin. The principal area would be in the electronic 
records field. We have a huge interest and involvement, for 
example, with the San Diego Supercomputer Center and other 
partners in the Federal Government. The NHPRC plays a key role 
in two areas, one in the theoretical aspect of authenticity and 
then the scalability with the recent grant that went as well to 
the San Diego Center. In that sense, NHPRC has played a very 
significant role in a broader challenge that we have as an 
agency for taking care of the records of all three branches of 
the Government.
    What we are working on here with the NHPRC being a 
significant partner is of benefit to the entire world, public 
and private, all sizes have wondered and worried for a number 
of years as technology continued to grow and expand and as new 
generations of technology kept coming faster, what were we 
going to do to provide access in the future several generations 
later. The work we are doing now, not just theoretical but in 
the applied stage where we have a comfort level, we now have 
the answer. We have time to work on that applied research but 
we feel we can really respond to that challenge. NHPRC has 
played a significant role in that overall effort.
    Mr. Horn. What you have in electronic records, is that 
subject to hackers crashing into it, changing things around?
    Mr. Carlin. I think everyone involved with electronic 
records has been concerned about security. Certainly one of the 
challenges we face and other panelists I believe can speak more 
specifically to that, when we talk about authenticity, when we 
talk about the reliability of that record, we are talking about 
avoiding hackers being able to go in and change that record in 
any way, shape, or form at whatever stage.
    As this overall project develops, I can assure you the 
aspect to which you refer and question is a key part of how we 
proceed. For us as archivists, it goes to the heart of our 
responsibility. We are not the only ones concerned about that. 
The pharmaceutical industry, for example, has been a key 
partner in all this. They likewise have long range interests in 
records, the authenticity and security of those records.
    Mr. Horn. That is an interesting collection. Is that for 
checking Presidential health over time or what?
    Mr. Carlin. I think they are more concerned, but I could be 
corrected, with their formulas, being able to protect 
themselves 20, 30, 50, 100 years later in the development of 
progress in the health industry, defend themselves in many 
cases, but also be able to keep records for future use and 
future development, further research down the road that is 
depend on what has gone before.
    Mr. Horn. Is that the pharmacist group that has that 
wonderful little building at the end of Constitution Avenue?
    Mr. Carlin. I am not aware of that direct connection.
    Mr. Horn. The story is that is the tomb of the unknown 
pharmacist. It looks very much like the one at Fort Myer. 
[Laughter.]
    I have been fascinated by that since I was a little boy and 
I think the doors are open and one of these days I am going to 
go in and see what is in there.
    Mr. Carlin. You might find the pharmacist that is working 
on this project. With the Internet and e-mail, you never know 
where the person is.
    Mr. Horn. Let me ask you about the 42,000 disks that had a 
little disturbance these last few weeks. What have we found at 
this point?
    Mr. Carlin. The 43,000 to which you make reference goes 
back to last summer over a weekend in which one of the backup 
responsibilities was not carried out by a contractor. What we 
have learned is that in this particular case a little more 
redundancy is valuable and that you cannot be over confident 
that everything is secure without a great deal of redundancy 
built into the system so that you back up the backups to make 
sure if there is a situation and there will be a loss. There 
will be deletions, breakdowns, electrical problems, and so 
forth but the key is making sure you have backup systems that 
protect those records.
    Mr. Horn. Do we know what was on those records? Where did 
they come from? Who deposited them?
    Mr. Carlin. The records were primarily in the archivist's 
office and support staff and 43,000 seems like a lot but it is 
really very little considering all of the exchanges that now 
take place routinely.
    Because of our system of printing out and not depending on 
recordkeeping, we are not aware of any loss in terms of actual 
records. Certainly it has made us even more aware of the 
challenge.
    Mr. Horn. What do you think caused it? Did someone have a 
big magnet in the area or what?
    Mr. Carlin. To be honest, we really don't know.
    Mr. Horn. Whose office were they in, yours or someone 
else's?
    Mr. Carlin. No, no.
    Mr. Horn. This was in the Maryland facility?
    Mr. Carlin. In the Maryland facility. Nothing happened in 
terms of an individual office. It was where the mainframes are, 
where the contractor works to do the backup on a regular basis 
that somebody pressed the wrong button or did something of 
which we're not aware at this point exactly what it was.
    Mr. Horn. Where did those records come from?
    Mr. Carlin. Records from my staff to myself, from myself to 
my deputy, routine conversations during the day that would take 
place that we use e-mail for.
    Mr. Horn. There were roughly 42,000 disks?
    Mr. Carlin. No. We are talking individual e-mail messages, 
many redundant messages, repeated to many other offices outside 
the circle where this particular deletion took place. For 
example, any communication my deputy and I had with the general 
counsel, would be on this system.
    Mr. Horn. You are saying this was strictly archival records 
from the U.S. National Archives?
    Mr. Carlin. No. We are talking strictly within our internal 
operation. It had nothing to do with Federal records we are 
responsible for taking care of, only the immediate operational 
records within our system. For example, it could have been 
hypothetically a communication between Mr. Constance and myself 
reminding me that the hearing you have set up for July 15 is at 
2 p.m.
    Mr. Horn. That is within the Archives?
    Mr. Carlin. Yes.
    Mr. Horn. Are you saying that is what all these records 
were, they were the internal administration of the Archives?
    Mr. Carlin. Yes, absolutely, unequivocally.
    Mr. Horn. I take it there were not any White House records 
there?
    Mr. Carlin. Absolutely not, no, no.
    Mr. Horn. We have one room over, a full committee, 
including me, what have these people done because they were 
playing a lot of games without question on wiping out. We are 
looking for what happened and some of it had to do with the 
Presidential library, memos were floating around as to saving 
some of the e-mail and some of it was you have a memory 
problem, get rid of some of the e-mail. We are just curious 
enough to want to know what those e-mails that presumably 
provided memory were going to do.
    Anyway, you are assuring me under oath that there are no 
White House records in there?
    Mr. Carlin. Absolutely, unequivocally.
    Mr. Horn. In terms of what your Commission does, Ms. 
Newhall, what is the typical edition of the books that are 
under your tutelage? How many copies do you have a publisher 
publish? Is it 250, 2,500, what is it?
    Ms. Newhall. More like 700. It also varies according to the 
edition itself. The first volumes of a set, they will produce 
more than Volume 27 of the same person's papers just because 
interest slacks off.
    Anything having to do with the Civil War seems to have a 
greater audience than other periods of time. So they do vary 
according to the topic.
    Mr. Horn. With the Jefferson papers and others, is that the 
typical number of copies made?
    Mr. Carlin. It is. The importance of these as reference 
materials has to be emphasized. They are used in libraries 
primarily. It takes a very dedicated Jeffersonian to buy every 
volume that comes out. There are now about 28 volumes, plus 
maybe 5 others the project has produced.
    Most people would expect to go to a library and use them. 
That is why the print run is not greater because it goes to 
libraries and that is about the number of libraries would buy 
these.
    Mr. Horn. I thought we could get a lot of this done but we 
are going to have to recess to vote. Then Ms. Biggert is 
entitled to at least 10 minutes of time on her questions. We 
will recess for about 15 minutes.
    [Recess.]
    Mr. Horn. The recess is over.
    We have Ms. Biggert for questioning for 10 minutes.
    Ms. Biggert. Thank you, Mr. Chairman.
    Ms. Gilliland-Swetland, have there been similar projects to 
the InterPARES in the past and if so, what were the results?
    Ms. Gilliland-Swetland. There has never been a project 
similar to this before, both in terms of the subject of the 
work and also the scope and the international dimensions.
    Ms. Biggert. Did you have any models to look at?
    Ms. Gilliland-Swetland. In terms of structuring the 
research project, it is structured very similarly to big, 
collaborative research projects that have been going on in 
other areas where technology is a point of interest, and also 
facilitators of collaboration.
    The content of the research draws upon previous research 
that has been done, research done in Canada but also research 
done in the United States and Australia, and some in Europe 
also.
    Ms. Biggert. Could you tell us the goals you and the 
Commission have for the InterPARES Project compared to the 
current preservation methods that we have today that have been 
used in the past?
    Ms. Gilliland-Swetland. The focus of InterPARES is 
specifically on records. The preservation of any digital data 
is problematic as we know at the moment, especially if you have 
to maintain that data with all its dependencies to the hardware 
and software that created it.
    When we want to preserve records, we are concerned also 
about the evidentiary requirements. It is considerably more 
difficult to preserve records than just plain information. 
Therefore it sets a very high bar for us to have to jump over.
    Our goals are to identify exactly how we can define a 
record in this environment. If you want to think about very 
simple environments we deal with all the time like the World 
Wide Web, not simple but common. In order to be able to define 
the boundaries around any particular Web page, where it begins, 
where it ends, what part of it might be a record, we want to be 
able to come up with requirements for identifying that. We want 
to see which pieces of any record are necessary to be 
maintained exactly as they are into the future in order to 
preserve the authenticity of the record, to keep its integrity 
intact.
    If it does not have its integrity intact, it is no longer 
reliable. As a record, we cannot trust it and therefore, for 
many purposes, it is useless in the future. We do not 
understand very well yet what those requirements are.
    Having isolated those requirements, we are then weighing 
all existing preservation mechanisms to see how many of those 
requirements are met by an array of preservation strategies 
available at the moment to see if any of them satisfy all the 
needs or whether some satisfy some of the needs, and then to 
develop blueprints for optimal preservation strategies in a 
variety of settings because preservation strategies are going 
to be different in different settings, with different kinds of 
records.
    Ms. Biggert. Is there testing being done of all the ways to 
preserve? We thought our photographs were going to last forever 
and probably, looking back, some of the historic photographs 
taken in the late 1800's or early 1900's, that I have of all my 
family seem to have lasted a lot longer than a lot of the kodak 
pictures I took of the kids when they were young. Is this 
something you test in different environments to make sure these 
will last?
    Ms. Gilliland-Swetland. Testing is done in two places. It 
is done by industry that develops the media and the 
technologies and there are longevity prognostications that come 
out. It is not necessarily in the interest of industry to have 
materials that stay around forever. Places such as Eastman-
Kodak do a lot of this testing themselves and publish their own 
results.
    National archives in several countries have been doing this 
for quite a long time. However, what they have looked at more 
is the media rather than the records on the media. Right now we 
are really interested in a way to maintain the records, those 
intellectual entities themselves because we know the media is 
going to turn over and they will continue to turn over.
    Ms. Biggert. You envision having to transfer these 
periodically?
    Ms. Gilliland-Swetland. Undoubtedly. This is why the 
project NARA is involved in with the SDSC, the San Diego 
Supercomputing Center, is so important because they are trying 
to develop ways they can maintain software-dependent records 
independent of media and specific information infrastructures.
    Ms. Biggert. Ms. Newhall, your current funding request for 
fiscal year 2001 is $6 million but the authorized level in the 
proposed reauthorization is $10 million. Do you foresee growth 
to that authorized level and how do you propose planning the 
growth in the most responsible way?
    Ms. Newhall. Just before the November 1999 meeting of the 
Commission, the chairman, Mr. Carlin, requested that the NHPRC 
develop a plan addressing that very question, determining what 
our potential needs would be, working on the assumption that 
there would be a requirement of additional funds and how we 
would proceed, at what level, to responsibly use those funds.
    This plan is to be presented to the chairman at the May 
meeting next month. At this point, it is premature for me to 
speak since this plan hasn't been approved by the Commission 
members. I think it is safe to say that it would involve 
utilizing any additional funds to implement our strategic plan 
more effectively and more aggressively.
    Ms. Biggert. Maybe one other quick question. How has the 
Commission kept its employee skills for the new technology? 
Have you had to bring in new employees to address the new 
technology or is everyone up to speed?
    Ms. Newhall. Yes to both questions. We have a new member of 
the staff who is Mr. Mark Conrad who was brought in to fill the 
then vacant position of Director, Technology Initiatives. That 
position has been created and occupied previously, it just 
happened to be vacant at the time of my arrival at the 
Commission. I think we are very fortunate in having someone 
with Mark's both archivable and technical understanding, and 
his wonderful ability to work with grantees, applicants. He is 
able to talk to people who are rocket scientists as though they 
are like me and he is able to talk to me as though I am a 
rocket scientist. It is very fortunate for us.
    At the same time, the rest of the staff, we do work to 
maintain basic technical skills, not just having to do with new 
technology but to remain up to speed on all the areas we need 
to know about the historical and documentary editing and 
particularly the archivable fields. There are many changes that 
occur all the time. We attend meetings, both to meet with 
potential and current grantees but also to learn ourselves from 
the sessions so we can be knowledgeable assessors of the 
project proposals that come into us.
    Ms. Biggert. Thank you very much, Mr. Chairman.
    Mr. Horn. Let me proceed with a whole range of questions. I 
am sorry the recess sort of took us off kilter.
    What information is put in the Presidential documentary 
editions for the founding fathers? Give me an idea. Is it 
mostly their letters primarily or newspaper articles that they 
made when they were selling the Federalist to the New York 
Packet so they could educate the people of New York?
    Ms. Newhall. Again, I think it varies from one individual 
to another. The papers that people produce vary just like their 
personalities. The attempt is to publish what was produced by 
these individuals. It tends to be heavily on correspondence, if 
there is any sort of diary, some news accounts if that is the 
only source we have of a particular event, particularly if it 
has a speech, the words of the individual.
    Mr. Horn. Have you got cartoons of the period?
    Ms. Newhall. Yes, it can include that. Also, such things as 
someone like Washington or Jefferson who was very involved in 
his home. There can be very interesting material about the 
weather, about agricultural methods in those days. So there is 
quite a range.
    Mr. Horn. Do we need the groundhog anymore after looking at 
those documents of the founding fathers?
    Ms. Newhall. I think we always need the groundhog.
    Mr. Horn. I hope so.
    Let me get back to the printed editions because I wasn't 
quite clear. Was it 700, 800? I haven't had a chance to look at 
those books; I will after the hearing is over but what are the 
number of the volumes in the edition that goes out or is it 
available?
    Ms. Newhall. I believe this varies according to the 
particular edition. I would like to come back to you with the 
correct answer.
    Mr. Horn. That is fine and without objection, that will be 
in the record at this point in a letter.
    The reason I asked is I happen to be a collector and I am 
looking at rare books from 1789 up and my back was turned, I 
was busy as President of the University and I didn't realize 
one of my mentors, not directly although I did meet the man 
when I was 10 years of age, was the great Hiram Warren Johnson, 
the Senator from California and much to my surprise one day, I 
walk into the University library and there is the seven volumes 
of his correspondence to his children. He wrote them and it is 
just marvelous.
    I immediately phoned the publisher. He only did an edition 
of 250 of those sets. I have an earlier Senator, John Quincy 
Adams and I have 1 of the 250 of those sets. That is the 
1830's, 1840's and 1850's. Now is now and I just can't believe 
libraries aren't willing to put those sets in their 
collections, let alone the poor individuals that are similarly 
interested.
    What do you do? It seems to me they all ought to have 
Jefferson's and Washington's papers, and this kind of thing in 
the good university library or the good city library. What is 
your thinking on that? Have they discussed this, how large an 
edition ought to be?
    Ms. Newhall. Yes but my understanding is that this is the 
sort of estimation that is done on the part of the publishers 
who tend to be non-profit university presses and this their 
area of particular expertise, not mine, I have to say.
    Mr. Horn. This was Garland that did the Senator's papers.
    Ms. Newhall. We would be happy to put you on our mailing 
list for all of our future endeavors.
    Mr. Horn. That is fine but what do we have, 3,000 colleges 
in this country. In our State, we have 107 community colleges, 
there are liberal arts colleges that are very small. They are 
great public State universities. Unless somebody is watching 
all this stuff, the faculty, often the specialists in American 
history, it is overwhelming unless you sort of put the heat to 
them to say I really need this and I want it on the reserved 
book room or something.
    Ms. Newhall. I have been in this position for just about 20 
months now and my primary concern besides learning the ropes in 
general, was to focus on the questions having to do with 
electronic records because I thought they were the most urgent.
    We are intending in the coming year to really make a great 
focus on the documentary editions. One of my concerns I have 
been raising with the publishers is the question of not so much 
the numbers that were published, although I will now, but about 
what they do to market the books. It is my sense that they seem 
to put considerably less energy and effort into this for later 
volumes than for the first one or two of a series.
    We have been making an effort to list as many of the 
editions as we can through Amazon.com. Also, I have been 
talking to the publishers about working harder for greater 
distribution in the rest of the world. Also, we have begun 
talks again with the Department of State.
    Several years ago, for the USIA, whatever the name is now, 
they purchased several hundred of our editions, volumes of our 
editions to be distributed in libraries and universities in 
foreign countries. I think the time is ripe for another round 
of this and other areas.
    As I stated in my written testimony, I feel very strongly 
that there is a great interest and need for the kinds of 
information that is available in the documentary editions in 
the rest of the world, in certain areas in particular. This is 
an area of special interest to me that I will be pursuing in 
the coming year.
    Mr. Horn. I don't know how many years ago it was but I 
remember the marvelous job you did in the archives on the 
Thomas Jefferson papers that looked like the papers. That is 
how good it was, so that students could feel it and see the 
great hand and all the rest of it. Have you done any others of 
those? I think you did the women's suffrage, didn't you, after 
that?
    Mr. Carlin. Yes, and then we are working on one for the 
congressional records at the current time.
    Mr. Horn. I was very impressed by that. I suggested, this 
might have been before your time, that maybe every member sort 
of like a West Point cadet, we ought to be able to give them to 
some high school or tell you which were the main academic high 
schools because I would think that would turn a lot of students 
on about Jefferson, about American history. We frankly have 
done a lousy job on American history.
    I think of those UCLA professors by the way, they must be 
absolute idiots in terms of what should be an American 
textbook. I don't know if you are familiar with that one?
    Ms. Newhall. Yes, I am.
    Mr. Horn. I hope someone finally looked at their background 
or something. It was nonsense. That would turn kids on. I go to 
about 100 classes a year in the high schools, the community 
colleges, and the university, so I am very sensitive to the 
materials we need to get people interested again in our 
heritage. I thought what you were doing there was magnificent.
    Mr. Carlin. It is amazing what technology can do in 
creating a facsimile copy. To the lay person, it is almost 
impossible to tell the difference between the facsimile copy 
and the original.
    Mr. Horn. Can you scan in those now or how do you do that?
    Mr. Carlin. I would not pretend to try to tell you exactly 
how that is done but there is a machine and our fine folks in 
the legislative archives have made the best use of that machine 
in providing various services to Members of Congress of 
facsimile copies of key records.
    Mr. Horn. That is great because I remember when I first 
came here in 1993. Don Anderson, who knows more about the 
Capitol than anybody since Fred Schingle, was here. He had the 
original journal of 1789 in the conference in New York. I guess 
it was on loan from the Archives and when Speaker Gingrich came 
in, he didn't want the responsibility for it, so it went back 
to the Archives. When you looked at those papers, they were 
absolutely like it was sort of bolded and minted and written on 
yesterday. That was so fascinating to see the ones that Don 
would say come in and look at this. That kind of thing I think 
would have the same impression.
    Let me ask, has the Center for Jewish History in New York 
presented the Commission with a proposal for spending some of 
your money? What is the story on that?
    Ms. Newhall. We had previously agreed with the Center that 
we would extend the deadline for submission of their proposal 
for the use of the remaining money appropriated to them to 
April 17. We considered that the departure of the individual 
who had been functioning as their project director for our 
project, the installation of a new CEO for the Center, and also 
the uncertainty that was injected into the process by the 
complete and then partial rescission of the funds during the 
appropriations cycle last fall, all constituted legitimate 
causes for a delayed submission.
    However, we have been in close touch with them and a member 
of the staff and I paid a site visit a couple of weeks ago. We 
are satisfied that they are operating well and on track with 
their proposal.
    Mr. Horn. We heard Mr. Blunt's comment and others about the 
leverage the Commission does. I think there is a lot to that, 
the same with the humanities and the arts and their various 
operations. Do you find that over time you have invested the 
right resources in particular projects? There have been some 
cases where they wrote a good proposal but nothing much 
happened. How many do you have like that?
    Ms. Newhall. Again, I haven't been with the Commission long 
enough to be able to draw upon years of knowledge of every year 
going back, but I think it is true that there is always going 
to be the disappointing project.
    One of the hallmarks of the NHPRC is the amount of work we 
put in with potential applicants and the amount of work we 
expect them to input in preparation. I think this is the result 
of the evolving knowledge of the staff in the Commission 
responding to projects that were disappointments and building 
on the strengths of projects that were good ones. It is hard to 
mistake the fact that the more planning and thought that goes 
in, the more they prepare for a project, generally, it is going 
to be better and often better lasting.
    One thing we try to do as a consequence of our lessons we 
have learned is whenever possible to extract a promise, for 
instance if a position is created for the length of the grant, 
to get the organization to commit to continuing to support that 
position with their own funds after the end of the project.
    Right now, we are making a more concentrated effort to 
measure the performances of our projects certainly in 
compliance with the GPRA but also from my own experience, I had 
intended, coming into the Commission, to implement such 
measures. I had previously worked in a very large foundation 
and was very aware of the efforts they took to conduct such 
reviews.
    It helps to recognize warning signals that projects are in 
trouble. We really want to look at those projects that are not 
just good but the huge successes and trying to figure out how 
much of that can be replicated in the future. We are new at 
this but we are really working to use this to result in much 
better and longer lasting projects.
    Mr. Horn. Is some of that oral history? Some of the 
projects, are they oral history, not just documentary one 
century ago but people now?
    Ms. Newhall. Right.
    Mr. Horn. That don't leave written records but they speak 
them. I remember being fascinated by the Library of Congress 
operation in the 1930's, going in and capturing all of the I 
guess in California we would have called it hillbilly music but 
it was music that went back several centuries in the mountains 
of West Virginia. Thank heavens we have those on records in the 
Library of Congress.
    Do you feel there is a need for that in the Archives and if 
so, what are we doing on it? Do we leave that to the Library of 
Congress?
    Mr. Carlin. Aside from NHPRC for the moment, we put a lot 
of emphasis on oral histories related to Presidential 
libraries. They work this very significantly.
    I might also add in terms of your previous question, 
because I just sent you a report, this percentage comes up to 
my memory bank. We set a goal in our strategic plan that NHPRC 
would be successful 85 percent of the time with projects that 
would accomplish their goals. This last year was 89 percent, 
the actual that came in. I remember seeing that as I went 
through our final report we shipped to you. I think we are 
basically on target to achieve what is realistic.
    They are not all going to come through but I think this 
demonstrates an excellent oversight work on the part of the 
staff to monitor, follow through, and to assist projects to be 
successful almost 90 percent of the time.
    Ms. Newhall. To answer your question about oral histories, 
the only projects we support to collect oral histories, to 
conduct oral history interviews at the present time is for 
Native Americans because this is not only a way of collecting 
history but in many ways, it is a way of preserving their 
language as well, and because their histories are often based 
on an oral tradition.
    We do not currently support projects from other groups to 
collect oral history but we will pay for the cataloging of 
already completed oral history interviews. This is an area I 
would love to be able to have the ability to expand. I 
personally have a great deal of experience with oral history, 
particularly as a way of filling in gaps when there are gaps in 
the documentation. If you can especially find one or two or at 
least three in order to triangulate, three individuals involved 
in the same incident, event, or time period, I think it is a 
wonderful way of filling these gaps.
    It is not as good as documentary history because the memory 
is faulty but you get such flavor from it that the paper can't 
convey. At present, we don't really have the means to support 
other than Native American oral history projects.
    Mr. Horn. I am delighted to hear that. When I was vice 
chairman of the U.S. Commission on Civil Rights, I met with all 
the Indian chiefs of New Mexico. Let me tell you, that was a 
moving experience. A chief in his 80's came in full regalia and 
we discussed a number of different legislative proposals. He 
was up on all of them and he brought feelings of two centuries 
of work to the table. To have that on film or on an oral audio 
tape would be really great for years to come.
    I would hope we could work out something so that we can get 
things like that done by either you or the Library of Congress. 
I don't know how to work it out, do we flip a coin or what, but 
that needs to be done. We have about 300 tribes in this 
country. Not all are on the reservation, just a few dozen, but 
that should be done before too many moons, shall we say.
    Ms. Newhall. We have had a Native American initiative that 
began several years ago and have made a real effort to work 
with Native American recordkeepers with varying degrees of 
success I will say, but it is a huge effort. I think it is 
probably most successful with the oral histories because of the 
oral traditions but now with more contemporary times and 
younger members, we have a number of Native American archivists 
who are fully trained.
    Mr. Horn. On your training of archivists, I think we all 
would agree on a liberal education and the more you know about 
history, anthropology, sociology, and all the rest, the 
behavioral sciences, if you will. What else do you feel 
archivists should learn and are we funding some of this at the 
State level or do you have in the archives regional sharing of 
information where you invite all archivists, one way or the 
other, either city archives which are very interesting in some 
places, and the State archives?
    Ms. Newhall. I am not sure I understand your question.
    Mr. Horn. I am just wondering how you are handling the 
development of the next generation of archivists.
    Mr. Carlin. Let me comment, first of all, from the agency 
point of view. We are very much involved with the profession in 
looking at the future as to what the educational requirements 
should be, what is a professional archivist, how it has changed 
dramatically. Historically speaking, you go back and NARA 
trained their own people because there were not archivists 
produced by the system. Now archivists are being produced. With 
the change in technology taking place, it is important that 
those of us responsible at the end of really delivering work to 
the educational community to make sure the standards, 
directions, and curricula are appropriate.
    Ann will make some comments in terms of specifically how 
the NHPRC has funded some grants but I would add, as you are 
well aware, we are all across the country and we try, as an 
agency, through our regional system to work with colleagues 
across the board, State and local in whatever way when we offer 
training, for example, and it is not exclusively for Federal. 
We are very interested in being supportive and in sharing what 
we have learned and developed. Ann has some specifics.
    Ms. Gilliland-Swetland. I just wondered if I might say also 
that there are graduate programs for archivable science that 
the new generation of archivists are coming out of masters 
programs in the universities across the country. There are not 
nearly enough of these programs and they are also facing a 
critical shortage of faculty. There are many faculty positions 
open but there are not many qualified faculty. Education of the 
next generation of archivists is a critical issue that NHPRC is 
working on and the universities are working on as well.
    Mr. Horn. How many library programs at the graduate level 
exist in campuses across the country and do you work with them?
    Ms. Gilliland-Swetland. Yes. The program I am in, there are 
probably about 10 library and information science schools with 
major programs and probably another 3 or 4 history schools with 
major programs. Of those, there are maybe five substantial 
programs in the country. Those all now have doctoral granting 
programs.
    Mr. Horn. Besides UCLA, what are they? I know you have a 
very good program there.
    Ms. Gilliland-Swetland. There is a program at Michigan, one 
at Pittsburgh, one at Maryland, one at Texas. Those are 
probably now the major programs in the country.
    Mr. Horn. And they have the ability to use modern methods?
    Ms. Gilliland-Swetland. Yes. They are all short of faculty, 
particularly faculty with the technology expertise.
    Ms. Newhall. If I might add, one of the concerns we have is 
that professionally, graduate-trained archivists alone are not 
the only people who handle historical records. As a consequence 
this is part of the focus of the National Forum on Archival 
Continuing Education which the Commission is funding to be held 
at the end of this month.
    It is targeting three groups of people, continuing archival 
education for three groups--one, the professionally graduate-
trained archivists but another what we call the allied 
professionals, the public librarians, the museum curators, the 
city clerks who, as part of their professional 
responsibilities, have responsibility for historical documents, 
but they don't have the same kind of graduate archival 
background.
    In fact, a third group are what we call the grassroots 
level. This can be volunteers in historical societies, what we 
might call non-professionals working within government offices 
or even historical societies.
    So we are looking in this forum this month at the three 
groups and what kinds of needs they have, where do they 
overlap, and where are they different.
    Mr. Horn. That is very worthwhile, I think. You think of 
all those courthouses, about 3,600 counties or so in this 
country and all the marvelous records that are there in terms 
of deeds, cases in the court, and this kind of thing. I am 
going through about 30 years of one newspaper in a very small 
county and you see all sorts of things that are happening 
there. It is amazing.
    The question is, when the new group says, who wants those 
old dusty records, throw them out. As I remember in one 
Illinois town place or county place, they found a few that 
Abraham Lincoln signed the particular documents there as a 
young lawyer, whatever it was.
    So I would commend you for that because I don't know the 
degree to which we know nationally where county papers are, 
were they dumped, are they in the State archives? Everybody has 
a problem with space, I know that, but we need to be helpful in 
some way.
    Ms. Newhall. If I could address that question briefly, what 
I left out of my verbal remarks because of lack of time was the 
program we have with the States which is designed to work with 
State board, State historical records advisory boards and we 
fund projects whereby they can assess exactly that. They do 
surveys of what historical records there are within a State, 
what kind of condition they are in, how many are in imminent 
peril, and then we fund thedevelopment of a statewide strategic 
plan for preserving and increasing access to these records.
    Then finally, through a series of what we call 
``regrants,'' which are projects where HPRC money is matched by 
State money and then subgranted by the state board to sometimes 
dozens or hundreds of small projects within the State to go in 
and work with those records. This is a program exactly designed 
to address that worry. Where are the records and what can we do 
to save them.
    Mr. Horn. I think with the geology craze, that might have a 
few sales in terms of what kinds of records are hither and yon.
    Let me yield for such time as she wants to consume to the 
vice chair, Ms. Biggert.
    Ms. Biggert. Thank you.
    I don't think I have anymore questions but I must say when 
the chairman goes to a field hearing, he heads directly to the 
antique book stores first to check out what is there.
    Mr. Horn. That is true.
    Ms. Biggert. He is truly a scholar.
    Mr. Horn. I only have 3,500 counties to go.
    Ms. Biggert. I yield back.
    Mr. Horn. When my son was 10 and we drove across America, 
he said, Dad's idea of fun is to go to the county courthouses 
along the way and he has become a political scientist, so it 
wasn't all lost on him.
    Let me ask a few tough ones and a few easy, soft balls 
which I have a tendency to give to this group.
    I am told that a substantial portion of the Commission's 
appropriation went to a single organization. I was curious, 
what is the group and why was that the case? Is it better to 
just spread it out? I know with small budgets--I have been with 
agencies with small budgets.
    Ms. Newhall. Of its appropriated funds?
    Mr. Horn. Yes. I understand that a substantial portion of 
the Commission's appropriation went to a single organization. 
Is that true?
    Mr. Carlin. It would have to be the Jewish History directed 
grant. That is the only one that comes to my mind. The grant 
which Anne Gilliland-Swetland made reference to with the 
InterPARES project was one of the largest but it was in the 
$450,000 category which is very, very large for us but I would 
have to assume you are making reference to the directed?
    Mr. Horn. I don't know. The question came up and I don't 
know who was for it or with it or whatnot.
    Mr. Carlin. Almost without exception, the grants we give 
are small.
    Mr. Horn. Do you have any variable formula that in some 
cases you say, we will give it to you but you are going to have 
to produce 75 percent or 50 percent?
    Mr. Carlin. The staff is always working on some kind of a 
matching possibility because we don't have the funds to give to 
everybody whatever number they come in with, to push them back 
down to prioritize, to make the most of the investment we are 
committed to.
    Mr. Horn. Let me get to the loss of records and any 
criminality that is involved. To what extent do you believe the 
archives have had people that can pilfer various manuscripts 
out of the archives? Have you ever had that problem?
    Mr. Carlin. Unfortunately, the answer is yes. It is not 
frequent, not routine. We certainly take our responsibility 
very seriously to protect the records and researchers are 
checked in and out. No one leaves with a briefcase without the 
briefcase being checked to make sure there are no records.
    Mr. Horn. But if they have it inside their shirt or 
something?
    Mr. Carlin. That is correct, we do not do strip searches on 
exiting during research at our facilities. It has always been a 
balancing issue. It is the same with security in general. We 
pride ourselves on access and we want the image of access. How 
much security do you provide both for the physical as well as 
the records themselves.
    Unfortunately, it happens. When it does happen, we take 
that very seriously. We pursue any lost records aggressively. 
There have been examples where we have found records that were 
lost to the custody of the Federal Government, changed hands 
several times. In some cases, where the records are being 
preserved and are made accessible rather than go through what 
might be a very expensive and time-consuming legal process, we 
arrive at an arrangement where they can be left in some 
exceptional cases. For the most part, we aggressively pursue 
Federal records. We take our role very seriously and yes, Mr. 
Chairman, unfortunately, it does happen.
    Mr. Horn. When you have some great manuscripts like the 
Louisiana Purchase and all that, obviously if that came up on 
auction, you know where it came from. Say the papers, for want 
of something, George Washington, is there any way in modern 
technology either by some sort of chemical in a corner or some 
sort of alarm that would set it off by having something they 
could do to the actual records--I realize that is heresy but I 
would rather see them there and not stolen. I am just wondering 
has anyone thought through what you can do to have sensors at 
the door which would set off the alarms?
    Mr. Carlin. That has been discussed. In fact, strictly by 
coincidence I had an e-mail today--I don't know why I go back 
to e-mail given our earlier discussion--from my Inspector 
General on the subject. He has raised the issue himself as to 
whether this would be something viable to check into.
    One thing I can assure you is that the most obvious 
intrinsically valuable records are not accessible to 
researchers on a routine basis. When you make reference to say 
the Monroe Doctrine, for example, those are records we keep in 
vaults with very limited access.
    There are valuable records and the degree varies but we 
wouldn't keep the record if it didn't have a value that can and 
does occasionally leave our custody.
    Mr. Horn. Your reading room, and I don't know how many you 
have, when I was doing the work on the Cabinet in Congress back 
in the late 1960's, there were maybe three of us using it. Now 
every seat is taken I am told. The question is, when people are 
using these documents, can your people monitor that in case 
someone is slipping it out or is there videotape that can just 
run all day or something like that which might catch someone 
doing it.
    Mr. Carlin. We try, to the best of our ability, staff, to 
the extent that we can monitor researchers. Interestingly 
enough, one of the issues that came up on the renovation 
project with our main building downtown was the potential 
location of a research room where we had the pillars. We ended 
up with my full support staying in the historic research room 
where there are no problems in terms of sight from observers to 
researchers.
    That issue came up and we discussed the possible 
alternatives. One of the major objections to the alternative 
was someone could operate behind a pillar or if one was going 
to avoid that issue, it would be much more expensive. We would 
have to have many more monitors and maybe go electronically to 
monitoring the rooms, although that has been considered, as 
well.
    Mr. Horn. Let me move to a more positive one. Before we 
finish that, have we had anyone indicted for stealing archives 
at all?
    Mr. Carlin. First of all, the answer to your question is we 
are not aware of anyone that has been indicted. In most cases, 
we retrieve and unfortunately, the retrieval is usually from an 
innocent party and tracing back to the person who actually took 
the document is sometimes impossible because it has passed 
through so many hands.
    My staff has reminded me as well that we now operate what 
we call clean research rooms. When someone checks in to do 
research, we have lockers and they do not take briefcases, 
suitcases, or whatever into the research room. They leave their 
attache case or whatever in a locker and go into the research 
room. In addition to that, as they leave, whatever they are 
leaving with, we check.
    Mr. Horn. It used to be in the university library 
profession that when your rare books room was attacked, they 
would never say anything about it. Then they changed where, by 
George, they tell everybody.
    I know some of the things that were stolen out of the Long 
Beach Library, stolen out of the Harvard Library, stolen out of 
the Yale Library, it turned out to be the same guy. With us, 
they either dropped them out the window or whatever to some 
accomplice on a long rope as it got dark and nobody was 
looking. I remember, I would look for that thing for years in 
book catalogs. It was Captain Cook's journals or something this 
guy walked off with, which was a rather precious series. They 
caught him but that is because they changed their attitude and 
admitted they had a problem to see if people could help them.
    I know people have found some of these people and they have 
10,000 books or something in their bedroom in the middle of 
Ohio and they are working both coasts and this kind of thing. 
So I just wondered if we have anybody we can nail on that?
    Mr. Carlin. I am not aware that we have had quite the 
extent of the problem that libraries have had but we are aware 
it does happen from time to time. The one thing I can assure 
you is we take that as a very serious problem. When the 
individual cases do come up, we aggressively pursue resolving 
it in an appropriate way.
    Mr. Horn. Let me get to a more positive thing. We passed a 
bill through here and it is over in the Senate on improving the 
Presidential transitions and providing the money for it through 
Mr. Kolbe's Appropriations Subcommittee. So whoever is the 
President as a result of the November elections, they would 
have funding to educate and get people of knowledge to work 
with the Cabinet, a couple of dozen, then the Deputy 
Secretaries, other key people. There is roughly, as you know, 
3,000 Presidential appointments. You can get that down to 300 
pretty fast when you leave it with agency heads and some of 
their key people, assistant secretaries and all that.
    I guess I would ask you are there things that Archives 
could help in terms of educating some of these people because 
every President is going to want his Presidential library going 
and if they are smart, they will start on day one and have an 
archivist in the White House that knows what they are doing and 
knows the records can be kept, although if we keep subpoenaing 
everything around there, maybe they will all burn them to start 
with. That is the risk we all take.
    Do you have any thoughts on how to educate the 30 top 
people that work around the President and the various agencies 
and what might you tell them?
    Mr. Carlin. I can assure you that we are aware of your 
proposal and the success you have had getting it through the 
House. My staff has been involved in answering questions and 
commenting and participating because quite frankly we are very 
interested in the transition. We are very, very aware of the 
importance of records management being a part of day one 
transition, so the answer to your question is yes, we have and 
we will welcome any opportunity to further our involvement in 
any transitional project.
    I would say with all due respect to everyone who has held 
the Office of President of the United States, we are still 
waiting for the first President to be there day one. I can 
assure you it is one of my goals and objectives. I would 
quickly add for the record that the criticism probably first 
and foremost comes back on us as an agency in not being 
aggressive enough. We are going to change that and if it 
doesn't work the next time, it won't be because we are not 
making the effort.
    It is particularly true and important in the age of 
electronic records. Your point and your interest has always 
been there and valuable for any transition. In the era of 
electronic records, it is essential that we be there and work 
with to set up the systems in a correct fashion so that we can 
avoid the millions of dollars that have had to be appropriated 
to go to backup tapes to try to recreate records that should 
have been dealt with appropriately in the first place.
    Again, that is not a criticism. We dealt with this in the 
Reagan administration, the Bush administration, and now the 
Clinton administration. It is an internal problem that needs to 
be dealt with and you have made a significant contribution. We 
welcome any way to partner to make that the success you want it 
to be.
    Mr. Horn. If you could give us a good case on that fairly 
succinctly because Presidents-elect aren't going to have much 
time. I would like to get a series of options that they could 
pick from. Obviously it is up to the President ultimately and 
some of his close advisers as to who they want to listen to and 
who they don't. I personally think they ought to be listening 
to the Archives. That is why I bring up the question that 
between the Archives and my other favorite entities are the 
Inspector Generals, the General Accounting Office, the Budget 
Examiners over in BOB.
    I have told people when they have been nominated by 
Presidents in both parties what you ought to learn before you 
go to the Senate because they will get big briefing books from 
the agency they are going to run but often they don't tell them 
very much. They protect and pretend the bureaucracy isn't 
there.
    If you start asking the IG and the people in the General 
Accounting Office and the Budget Examiners, they will tell you 
the truth often of what you are going to get into. Somebody 
might just throw a question at you about that. So we would love 
to have the Archives in on that too.
    Mr. Carlin. We would be very happy to participate and make 
sure through staff that we respond in an appropriate, succinct 
way to fit the message.
    I would quickly add we intend to be very aggressive. We 
started during the last few years, trying to make up for lost 
time. I tried to reach at the Cabinet level and push down, so 
there is support at the top for records management. It is too 
late for the transition but there are still records being 
created and mistakes being made that are going to be costly. So 
we have had some success, we are making progress but partnering 
with you will certainly give us a greater opportunity to be 
successful in the next administration.
    Mr. Horn. On the Commission, what is the situation in terms 
of your resources, do you feel, if we were able to up the 
authorization, that kind of thing? Don't be shy.
    Mr. Carlin. She is in a little bit of shock because she has 
not heard upping the authorization language in her tenure. 
Quite seriously and I will let Ann comment as well, the whole 
resource issue is one we are looking at in a variety of ways. 
As Ann indicated earlier, she and a lot of folks, as well as 
outside interests, are taking a look at where the program is 
today and its needs, as well as the future.
    As you are well aware right now, we have an authorization 
of $10 million and an appropriation of $6 million, so we have 
some room to grow within the existing authorized figure. I 
would tell you that you should expect in coming years that 
number of $6 million to go in terms of requests to get closer 
to that $10 million in the relative near future given all the 
challenges we face in electronic records as well as other 
documentary needs.
    Mr. Horn. Do you have an actual cost on the electronic 
records situation? Is it $2 million, $4 million increase, or 
what?
    Mr. Carlin. In terms of NHPRC?
    Mr. Horn. Yes.
    Mr. Carlin. No, we do not have a number at this time.
    Mr. Horn. Is there any way we can get a number or is it 
just impossible?
    Mr. Carlin. No, it is not impossible to get a number but we 
are not far enough along in terms of the study that is taking 
place to give you a number at this time. Obviously consistent 
with the history and the way NHPRC operates, it will be 
relatively speaking to the total need, a modest figure 
leveraging other resources publicly and privately at all 
levels. Certainly the NHPRC is not going to come forward with a 
number to solve the problems. It is very helpful to have NHPRC 
with the resources to partner, to leverage, to be used as they 
have so successfully on many, many electronic records problems 
and issues and projects that have produced very valuable 
information and uses for all levels of government outside the 
Federal Government.
    Mr. Horn. I don't want to keep you any longer. Are there 
any questions we should have brought up that we were too dumb 
to see and if so, what are they?
    Mr. Carlin. I would not suggest, certainly for the record, 
that there would be any possibility that you have missed 
anything.
    Mr. Horn. Remember you are under oath.
    Mr. Carlin. I understand. [Laughter.]
    I would tell you, on behalf of the entire Commission, and 
all the endless beneficiaries of NHPRC, we very much appreciate 
this committee's interest and particularly your strong 
leadership in providing support, in challenging us, in raising 
tough questions because you have an appropriate role and it is 
a role we want to work with. Bottom line, we want to deliver 
and you are of great assistance to that bottom line delivery.
    Mr. Horn. You are a very able political figure and you sort 
of follow my friend and one of my late part-time mentors when I 
was on the Hill, Senator Dirksen in his back office would say, 
``We can win more with honey than we can with vinegar.'' A lot 
of people around here still need to learn that but that was the 
way Dirksen was a great leader and got things done. He would 
leave his office at 9 p.m., he is in the back seat, flips on 
the light and he is reading bills. He knew more than the author 
of the bill at the time it came up in the Senate.
    Those who know something thanks to Archives and libraries 
get things done.
    Thank you for coming and we appreciate it. You are doing 
good work and keep doing it.
    Mr. Carlin. Thank you.
    Mr. Horn. We are adjourned.
    [Whereupon, at 5:10 p.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Jim Turner follows:]

    [GRAPHIC] [TIFF OMITTED] T0057.036
    

</pre></body></html>
